Review of Medicare Administrative Costs Incurred by BlueCross and BlueShield of North Dakota/Noridian Mutual Insurance Company of Fargo, North Dakota, A-07-00-02078
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Administrative Costs Incurred by BlueCross and BlueShield of North Dakota/Noridian Mutual Insurance Company of Fargo, North Dakota," (A-07-00-02078)
December 22, 2000
Complete Text of Report is available in PDF format (7.3 MB). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The report covers the audit of administrative costs claimed by BlueCross BlueShield of North Dakota/Noridian Mutual Insurance Company for Part A and Part B of the Medicare Program for the period October 1, 1997 through September 30, 1999. For the period audited, BlueCross BlueShield/Noridian claimed administrative costs $5,599,516 to process Part A claims and $89,627,343 to process Part B claims.